No. 20-366

 

IN THE

Supreme Court of the United States

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ETAL.,
Appellants,
Vv.

STATE OF NEW YORK, ET AL.,
Appellees.

On Appeal from the
United States District Court for the
Southern District of New York

BRIEF FOR AMICUS CURIAE THE UNITED
STATES HOUSE OF REPRESENTATIVES
_IN SUPPORT OF APPELLEES

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,480 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 16, 2020.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
